                            Office of the Inspector General


March 1, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General

Performance Measure Review: Reliability of the Data Used to Measure Welfare
Reform Childhood Disability Reviews (A-01-99-91003)


Attached is a copy of our final report. The objective of this review was to assess the
reliability of the Social Security Administration's (SSA) performance data used to
measure the number of Welfare Reform childhood disability reviews conducted during
Fiscal Years 1997 and 1998. The number of childhood disability redeterminations
conducted during this period was one of the workload measures requested by
Congress to gauge SSA’s progress in meeting workload goals proposed in its budget.

Please comment on corrective action taken or planned on each recommendation within
60 days from the date of this memorandum. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                               James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE MEASURE REVIEW:
  RELIABILITY OF THE DATA USED TO
    MEASURE WELFARE REFORM
   CHILDHOOD DISABILITY REVIEWS

   March 2000      A-01-99-91003




AUDIT REPORT

                           Office of the Inspector General



William A. Halter
Deputy Commissioner
 of Social Security

Inspector General

Performance Measure Review: Reliability of the Data Used to Measure Welfare
Reform Childhood Disability Reviews (A-01-99-91003)


The Social Security Administration (SSA) is required to report to Congress on
17 selected measures of workload and performance as part of its budget process.
These commitments were made to Congressman John E. Porter, Chairman of the
Labor, Health and Human Services, Education and Related Agencies Subcommittee,
who wanted to gauge SSA’s progress in meeting workload goals proposed in its annual
budget. These commitments are often called the "Porter Commitments." The objective
of this review was to assess the reliability of SSA’s performance data used to measure
the Porter Commitment related to the number of Welfare Reform childhood disability
reviews conducted during Fiscal Years (FY) 1997 and 1998. This Porter Commitment
is shown below, with the FY 1997 count representing the actual number of reviews
processed and the FY 1998 count representing the number of reviews planned:

   Childhood Reviews Processed (Welfare Reform):

   FY 1997: 229,000 (actual)

   FY 1998: 266,000 (planned)



RESULTS OF REVIEW

We were unable to audit the number of childhood reviews conducted during FY 1998
since SSA has not reported this information to Congress. However, since SSA
conducted childhood redeterminations during this period and maintained data on this
workload, we estimated the number of childhood reviews conducted to provide
Congress the information requested. To perform this work we utilized a data file
created by SSA to track the childhood workload. This file represented 246,378 children
reviewed during FYs 1997 and 1998.
SSA originally determined that of the 1 million disabled children in the Supplemental
Security Income (SSI) program, approximately 288,000 children, with a disability based
on an individualized functional assessment and/or maladaptive behavior, needed to be
redetermined under the Welfare Reform law. SSA later reduced this number to
approximately 260,000 children after completing an initial screening process.

Our testing of SSA's data file showed that the data was reliable in representing
childhood reviews performed in FYs 1997 and 1998. Also, our tests of the data support
that SSA performed an estimated 231,595 reviews in FY 1997 and 14,783 childhood
reviews in FY 1998.

REPORTING CHILDHOOD REVIEW NUMBERS TO CONGRESS

In February 1998, SSA reported on 17 Porter Commitments, including the fact that it
processed 229,000 Welfare Reform childhood reviews in FY 1997. On January 28,
1999, SSA provided Chairman Porter with a status report on 16 of the 17 Porter
Commitments for FY 1998. However, the one Porter Commitment not mentioned in the
report was the FY 1998 childhood reviews under Welfare Reform. We asked SSA staff
about the absence of this commitment information in the report to Congress. We found
that several SSA staff did not seem to be aware that the information was missing from
their letter to Congress. Others told us that SSA had not reported the FY 1998
information to Congress because of the difficulty in separating the FY 1997 reviews
from the FY 1998 reviews.

When we asked SSA staff for an explanation of what was being counted as a childhood
review in the Porter Commitment, we were told that the reviews referred to
redeterminations, reconsiderations,1 and reworked cases.2 An employee from SSA's
Office of Budget told us that the FY 1997 commitment primarily represented
redeterminations of children, while the FY 1998 commitment represented
redeterminations, reconsiderations and reworked cases. However, we were not able to
verify the actual method used to calculate the Porter Commitment since SSA did not
provide a final number representing childhood reviews conducted in FY 1998.

In estimating the number of redeterminations performed by SSA, we did not include
reconsiderations or reworked cases, since we do not believe SSA should count
reconsiderations in the workload measure and the reworked cases were never
anticipated in the FY 1998 planned workload number. A SSA staff person noted that
SSA planned to count the redeterminations, reconsiderations and reworks as childhood

1
  If an individual is not satisfied with the results of his or her redetermination, he or she may request a

reconsideration. In such a case, the Disability Determination Services reviews the evidence again, and

either confirms or modifies the original determination. In a further appealed case, an administrative law

judge of the Office of Hearings and Appeals may issue an independent decision.

2
  In March 1998, SSA issued a listing of approximately 38,000 cessation cases to be screened/reworked.

We discuss this further in our report “Welfare Reform Childhood Redetermination Accuracy,"

(A-01-98-62012), March 3, 1999.



                                                     2

reviews to provide Congress with information on all the activities related to the
redeterminations required under the Welfare Reform law. Nonetheless, this counting
methodology is inconsistent with a similar measure for periodic continuing disability
reviews (CDR), also a Porter Commitment. Over the years, SSA has included only
initial CDRs when reporting its annual productivity to Congress under both the Porter
Commitment and other Congressional requirements, even though reconsiderations are
also generated from SSA’s CDR workload.

ESTIMATED NUMBER OF CHILDHOOD REVIEWS PERFORMED

To test the reliability of the data used to measure this Porter Commitment, and to
estimate the number of reviews performed in FY 1998, we obtained data from SSA's
Office of Disability (OD) for 246,378 children SSA tracked for the Welfare Reform
redetermination workload. SSA stated that these children had undergone initial
redeterminations under Welfare Reform during either FY 1997 or FY 1998. Of these
childhood cases, we tested a sample of 100 and found evidence that redeterminations
were performed for all 100 children. Also, we found that 94 of the 100 sampled
redeterminations were processed in FY 1997, while the remaining 6 were processed in
FY 1998. We projected our sample results to the population to estimate the number of
reviews performed in FYs 1997 and 1998. Of these 246,378 redeterminations, we
estimate that 231,595 initial redeterminations were conducted in FY 1997 and
14,783 initial redeterminations were conducted in FY 1998 (see Figure 1).

                                                             Our testing included the
            Figure 1: Estimated Fiscal Year                  total number of childhood
                                                             redeterminations
                 Allocation of Childhood
                                                             performed during a 2-year
              Redeterminations Performed
                                                             period, since SSA could
                                         FY 1998             not separate the reviews
                                          14,783             by FY. We compared the
                                           6%                childhood data provided
                                                             by OD to SSA's internal
           FY 1997                                           reports generated from
           231,595                                           the same information to
            94%	                                             test the completeness of
                                                             our data. SSA's internal
                                                             report stated that
                                                             approximately
249,907 redeterminations had been completed during FYs 1997 and 1998.3 Although
we were able to confirm that reviews were performed for all 100 of the sample cases,
we were unable to locate paper copies of full medical decisions from the Disability
Determination Services (DDS) offices for 6 of the sample items. To resolve these six

3
 "SSI Welfare Reform Childhood Status Report: Through October 31, 1998," Office of Disability, SSA,
December 23, 1998. This report was designed to track the progress of the childhood reviews. The
numbers in this report also contain 1 month of FY 1999.


                                                 3
cases, we reviewed other documents provided by SSA as well as information found in
SSA's information management systems. Based on the documentation4 and data in
SSA’s information management systems, we determined that redeterminations had
been completed for all six cases. We also established, for each case, the FY during
which the redetermination was completed.

CONCLUSION AND RECOMMENDATION

Congress required SSA to establish workload measures to determine whether SSA is
meeting targets set during budget discussions. For this process to be effective, SSA
must be able to properly measure the workload and accurately report the results to
Congress. In the case of the childhood review Porter Commitment, SSA has not been
able to separate the reviews by FY. In addition, SSA did not report the 2-year review
results to Congress in any form, even though they were being reported to SSA’s
managers.

We recommend that SSA provide Congress with the number of childhood reviews
processed in FY 1998 related to the Porter Commitment and clearly explain the
methodology used as well as a breakout of all categories, such as redeterminations,
reconsiderations, and reworked cases.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. SSA noted that
it was not able to put into place an automated workload measurement system due to
the one-time nature of this workload. SSA stated that it will provide Congress with a
report on the number of FY 1998 childhood reviews conducted when submitting its
FY 2001 President's budget request. However, SSA also stated that it still believes
both initial childhood reviews and reconsiderations should be reported to Congress in
order to show the entire redetermination workload related to earmarked funding. (See
Appendix D for SSA's comments to our draft report).

OFFICE OF THE INSPECTOR GENERAL RESPONSE

In reporting the FY 1998 childhood review numbers to Congress, we still believe SSA
should clearly explain the methodology used as well as a breakout of all categories,
such as redeterminations, reconsiderations, and reworked cases. In this way, SSA can
convey its entire redetermination workload while Congress will have sufficient detail to
understand the nature of the work performed.


4
  Some of the evidence we reviewed in the medical folders included correspondence with the families of
the children, reconsideration decisions by the DDS offices, and documentation prepared by the Office of
Hearings and Appeals.


                                                   4

OTHER MATTERS

While reviewing cases to meet our audit objective, we also determined for each sample
case whether SSA’s data bases had been properly updated to reflect the DDS office's
decision on the cases. See Appendix C for the results of this analysis.




                                               James G. Huse, Jr.




                                          5

                              APPENDICES


APPENDIX A - Background


APPENDIX B - Scope and Methodology


APPENDIX C - Other Matters


APPENDIX D - Agency Comments


APPENDIX E - Major Contributors to this Report


APPENDIX F - SSA Organizational Chart

                                                                                          APPENDIX A


                                    BACKGROUND


In August 1996, Congress passed the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (Public Law 104-193), also called the Welfare Reform law.
This law mandates continuing disability reviews (CDR) and/or redeterminations1 be
performed for specific Supplemental Security Income (SSI) cases, including:

    •	 redeterminations for children with a disability based on an individualized
       functional assessment and/or maladaptive behavior;

    •	 redeterminations for all SSI recipients attaining age 18 under the adult initial
       eligibility rules; and

    •	 CDRs at least once every 3 years for all SSI recipients under age 18 whose
       impairments are likely to improve (or, at the option of the Commissioner,
       recipients whose impairments are unlikely to improve).

The Welfare Reform law also authorized $150 million in Fiscal Year (FY) 1997 and
$100 million in FY 1998 in additional funds to assist with these CDR and
redetermination mandates.

Redetermination of SSI Children

The Social Security Administration (SSA) originally determined that of the 1 million
disabled children in the SSI program, approximately 288,000 children, with a disability
based on an individualized functional assessment and/or maladaptive behavior,
needed to be redetermined under the Welfare Reform law. This number was later
reduced to approximately 260,000 after an initial screening process2 was completed.
Under this law, the previous "comparable severity" standard for childhood disability was
replaced with a new and stricter "marked and severe functional limitation" standard. As
a result, individuals under age 18 are considered disabled if their impairment meets the
statutory duration requirement and if they have a medically determinable physical or
mental impairment that results in marked and severe functional limitations. The law
also eliminated the use of individualized functional assessments for children and
eliminated


1
  The purpose of a CDR or redetermination is to determine whether a disabled individual is still medically

eligible to receive benefits.

2
  An initial review of the approximately 288,000 children scheduled to be redetermined, identified

approximately 28,000 children who were not the intended target of Welfare Reform.



                                                 A-1

reference to maladaptive behavior in the prior personal/behavioral domain in childhood

mental disorder listings. These redeterminations were performed by the State

Disability

Determination Services offices, which are SSA’s primary contractors responsible for

performing initial disability determinations for the SSI and Disability Insurance

programs.


SSA Budget Commitments


SSA is required to report to Congress on the number of childhood redeterminations
conducted under the Welfare Reform law. This information was promised to
Congressman Porter, Chairman of the Labor, Health and Human Services, Education
and Related Agencies Subcommittee, who wanted to gauge SSA’s progress in meeting
workload goals proposed in its annual budget. These performance goals (17 in
FY 1998) are often called the “Porter Commitments.” Table 1 shows the number of
childhood disability reviews completed and planned by SSA.

Table 1: SSA’s Porter Commitment for Welfare Reform Childhood Reviews

                                     FY 1997               FY 1998              FY 1999
                                     (Actual)             (Planned)            (Planned)


    Childhood Reviews                229,000               266,000                  0

Note: The FY 1999 column is included because although the reviews themselves are to be completed by

this point, Agency efforts related to hearings and appeals on some of these cases will continue.

Source: SSA’s FY 1999 budget presentation.


By October 31, 1998, SSA's Office of Disability reported internally that the Agency had
completed 245,241 redeterminations at the initial level, deciding to cease benefits for
146,368 children and continue benefits for 98,873 children.




                                              A-2

                                                                           APPENDIX B


                 SCOPE AND METHODOLOGY


The objective of this review was to assess the reliability of the Social Security
Administration’s (SSA) performance data used to measure the number of Welfare
Reform childhood disability reviews conducted during Fiscal Years (FY) 1997 and
1998. To accomplish our objective, we:

   •	 obtained from the Office of Disability (OD) a data file containing the information
      on 246,378 individuals who had undergone initial childhood disability
      redeterminations during FYs 1997 and 1998;

   •	 compared the information in the OD data file to our own analysis of the National
      Disability Determination Services System;

   •	 selected a random sample of 100 childhood cases from the 246,378 individuals
      included in the file provided by OD and projected our sample results to the
      population;

   •	 requested from SSA copies of the medical files that supported the
      redetermination decisions for each of these sample cases;

   •	 determined for each sample case whether: (1) the contents of the medical folder
      supported SSA's claim that an initial redetermination had been performed, and
      (2) the Continuing Disability Review Control File and Supplemental Security
      Record had been properly updated to reflect the decision on the case;

   •	 reviewed a copy of OD's "SSI Welfare Reform Childhood Status Report:
      Through October 31, 1998;"

   •	 interviewed SSA staff in the Office of Financial Assessment and Management,
      the Office of Budget, and OD to understand the source of the Porter
      Commitment numbers, determine how the redetermination numbers were being
      used, and obtain copies of any information shared with Congress as it related to
      the childhood reviews;

   •	 contacted both Disability Determination Services and field office personnel to
      obtain updated information on sample cases where we had questions; and

   • reviewed pertinent laws and regulations related to childhood redeterminations.



                                           B-1

                                   Sample Results

    Population Size                                                              246,378
    Sample Size                                                                      100
    Number of Supported Initial Reviews in Sample                                    100
    Number of FY 1997 Reviews in Sample                                               94
    Number of FY 1998 Reviews in Sample                                                6
    Projected Number of Total Reviews Conducted                                  246,378
    Projection Lower Limit                                                       239,108
    Projected Number of FY 1997 Reviews Conducted                                231,595
    Projection Lower Limit                                                       215,330
    Projection Upper Limit                                                       240,874
    Projected Number of FY 1998 Reviews Conducted                                 14,783
    Projection Lower Limit                                                         5,504
    Projection Upper Limit                                                        31,048
     Note: All precision figures were calculated at the 95-percent confidence level.



We limited our review to initial childhood disability redeterminations and did not count
cases reopened under the Commissioner's review as part of the population tested. In
addition, we did not review the internal control procedures associated with processing
the redeterminations. These controls were the subject of an earlier Office of the
                          1
Inspector General review. We performed our review in Baltimore, Maryland, and
Boston, Massachusetts, between April and July 1999. We conducted our review in
accordance with generally accepted government auditing standards.




1
 “Performance Measure Review: Periodic Full Medical Continuing Disability Review Data Collection,”
(A-01-98-94003), September 1999.




                                                 B-2

                                                                                       APPENDIX C


                                OTHER MATTERS


In our testing of the childhood redetermination cases we also determined for each
sample case whether the Supplemental Security Record (SSR) and the Continuing
Disability Review Control File (CDRCF) had been properly updated to reflect the
Disability Determination Services (DDS) office's decision on the case. The SSR is the
Social Security Administration's (SSA) primary database for all individuals receiving
Supplemental Security Income (SSI) payments. The SSR includes data related to an
individual's eligibility for payments, the nature of any disability, an individual's payment
status, and other information. The CDRCF was developed to assist the Office of
Disability in managing the increasing number of continuing disability reviews (CDR)
and redeterminations mandated by legislation.1 This system is used to notify field
offices when a review is due, track the progress of the review, and interface with other
SSA systems to update the recipients’records. Both the SSR and CDRCF are updated
with CDR information generated by the DDS office conducting the review.2


                                                                         In total, 32 of the
            Figure C-1: SSR and CDRCF Posting                            100 childhood
                                                                         redetermination cases in
           Problems in Our Sample of 100 Cases
                                                     CDRCF
                                                                         our sample were not
                                                   Missing Data          properly posted to either
                                                       13%               the SSR, the CDRCF, or
                                                                         both systems. In 19 of
                                                                         the cases, DDS
        Properly                                     SSR Missing
        Posted                                          Data             decisions were not
          68%                                           11%              properly posted to the
                                                                         SSR (see Figure C-1).
                                                 CDRCF and               In particular, we found
                                                 SSR Missing             that DDS decisions were
                                                    Data
                                                     8%
                                                                         either missing from the
                                                                         SSR, were incorrectly
                                                                         posted to the SSR, or



1
  Program Operations Manual System DI 40503.004.

2
  Although the National Disability Determination Services System remains the primary management

information system used at the national level to monitor CDR and redetermination workloads, the proper

recording of review results on other systems, such as the SSR and the CDRCF, is also important since

these systems are also used by SSA staff to review post-entitlement activities.



                                                 C-1

were never updated on the SSR. However, we did not find any childhood cases in our
sample where payments continued in error at the time of our review due to incorrect
information on the SSR.

Our review of the sample cases also found that DDS decisions on 21 of the childhood
redeterminations were not properly posted to the CDRCF. Out of the 100 cases we
reviewed, information on initial decisions for 9 cases, and appeals information for
another 12 cases, was either missing, posted late, or incorrect. Although the CDRCF
included only SSI CDRs and redeterminations during our review, SSA recently
expanded the capability of the system to include Disability Insurance (DI) and
                           3
concurrent reviews as well. As a result, any uncorrected problems in the current
system will be magnified in the future as SSA increases usage of the CDRCF.

We believe that incomplete CDR data in the information management systems
weakens the ability of SSA's staff to properly monitor CDRs in progress and the post-
entitlement status of SSI recipients. We plan to continue to test the accuracy of the
information in the SSR and CDRCF in future audits.




3
    Concurrent cases relate to individuals receiving both SSI and DI benefits.




                                                     C-2

                   APPENDIX D



AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) EVALUATION
REPORT, “PERFORMANCE MEASURE REVIEW : RELIABILITY OF THE DATA
USED TO MEASURE WELFARE REFORM CHILDHOOD DISABILITY REVIEWS”
(A-01-99-91003)

Thank you for the opportunity to review the subject draft report.
The report states that SSA did not report the 2-year childhood
review results to Congress. However, SSA has consistently
forwarded copies of the SSI Welfare Reform Childhood Status
Report each time it was issued to the appropriate members of
Congress and Committees with jurisdiction. As requested, below
are our comments on the audit report and a response to the
report's recommendation.
RECOMMENDATION

SSA should provide Congress with the number of childhood reviews
processed in fiscal year (FY) 1998 related to the Porter
Commitment and clearly explain the methodology used as well as a
breakout of all categories, such as redeterminations,
reconsiderations, and reworked cases.
COMMENT

We agree. Because of the one-time nature of the Welfare Reform
work, SSA was not able to put in place automated workload
measurement systems to capture the relevant data. A more time-
consuming manual effort was required to collect the data from
ongoing DDS workload reports. Based on this data, the number of
childhood redetermination reviews in FY 1998 was: 39,580 initial
childhood reviews, approximately 89,100 evidentiary
reconsideration actions (the exact number cannot be determined
due to reporting limitations), and 65,301 disability hearing unit
actions (face-to-face interviews), making a total of
approximately 194,000 reviews.

The top-to-bottom review of childhood cases announced by
Commissioner Apfel in a report that was published in December
1997 called for SSA to rereview certain redetermination cessation
cases and mental retardation denials, and send new notices to
beneficiaries whose benefits were ceased, but had not appealed
the cessation. The Disability Determination Services had to
temporarily suspend childhood redetermination processing and
retrain adjudicators in order to complete these rereviews.
Training was completed by the end of March 1998. Although
implementation of the top-to-bottom review findings enhanced the
quality of redeterminations, it reduced the number of
redeterminations processed in FY 1998 compared with planned
numbers and meant that the remaining redeterminations had to be
deferred.



                               D-2

Per the OIG's request, SSA will provide a report to the
Appropriations Committee on the number of childhood reviews in
connection with the FY 2001 President’s budget request.


OTHER COMMENTS:

Results of Review; Reporting Childhood Review Numbers to Congress

OIG states that SSA should not count reconsiderations in the
childhood review workload measure since the reworked cases were
never anticipated in the FY 1998 planned workload number and this
method would be inconsistent with the way workload measures are
counted.

SSA's workload estimates (265,900) for FY 1998 did include
initial childhood reviews (79,200) as well as evidentiary and
face-to-face reconsiderations (186,700). SSA chose to present
the workload in this manner because of the one-time nature of the
work, the compressed timeframe to complete it, its impact on
other SSA workload processing and the fact that Congress provided
earmarked funding for that purpose. Because SSA's performance
commitment for this measure included both initial reviews and
reconsiderations, it would be misleading to report to Congress
only a portion of the total workload (i.e., initial reviews).




                               D-3

                                                                   APPENDIX E



MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

   Roger J. Normand, Director, Disability Program Audit Division


   Rona Rustigian, Deputy Director


   Walter Bayer, Auditor


   Steven Kurker, Auditor




For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-01-99-91003.
                        APPENDIX F



SSA ORGANIZATIONAL CHART

